U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                           Status of IDENT/IAFIS
                                Integration
                                      Report Number
                                        I-2003-005




                                                      i
                                      EXECUTIVE SUMMARY


       The Office of the Inspector General (OIG) has examined over the past
several years the integration of the Immigration and Naturalization Service’s
(INS) and the Federal Bureau of Investigation’s (FBI) automated fingerprint
systems.1 In 1999, the Department of Justice (Department) assigned the
Justice Management Division (JMD) to lead the effort to integrate the INS’s
Automated Biometric Identification System (IDENT) and the FBI’s Integrated
Automated Fingerprint Identification System (IAFIS).

      In December 2001, we evaluated the Department’s progress at
integrating IDENT and IAFIS and found that the integration project was a year
behind schedule. We also reported that the INS planned to implement several
interim measures to enhance IDENT until it is integrated with IAFIS. We
conducted the current review to examine (1) whether the integration project
was on schedule, (2) whether JMD planned for the continued development and
deployment of the integration project after the INS transfer to the Department
of Homeland Security (DHS), and (3) whether the INS had implemented its
planned interim enhancements to IDENT.2

       The primary finding of this review is that integration of IDENT and IAFIS
continues to move slowly and has fallen another year behind schedule. We
also found that the integration project is at risk of further delay because JMD
did not develop a transition plan for continued management of the project once
the INS transferred to the DHS in March 2003. The delays and lack of
planning for the future of the integration project is even more troubling
because the limited interim enhancements made by the Department to IDENT
have had impressive results. For example, from January 2002 to mid-April
2003, the INS matched and positively identified the fingerprints of
approximately 4,820 apprehended individual aliens with the fingerprint records
of suspects wanted for a variety of serious criminal offenses, including 50
aliens wanted in connection with murder. These results demonstrated the
extraordinary need for implementing timely an integrated IDENT/IAFIS system
to identify criminal aliens and terrorists. Based on our review, we believe that
there will be further delays to the integration project, and that these delays
create continued risks to public safety and national security.


        1 The Rafael Resendez-Ramirez Case: A Review of the INS's Actions and the Operation of

Its IDENT Automated Fingerprint Identification System (March 20, 2000); and Status of
IDENT/IAFIS Integration (December 7, 2001).
        2On March 1, 2003, the INS was transferred to the DHS, and its responsibilities divided
among three bureaus: the Bureau of Citizenship and Immigration Services, the Bureau of
Customs and Border Protection, and the Bureau of Immigration and Customs Enforcement. In
this report we refer to the INS as it existed prior to March 1, 2003.

U.S. Department of Justice                                                                   ii
Office of the Inspector General
Evaluation and Inspections Division
Results in Brief

      The integration project has been further delayed. As of April 2003,
the integration project was at least two years behind schedule. When we
issued our December 2001 report, the major milestone for the integration
project was deployment of the initial integrated version of the IDENT/IAFIS
system. JMD delayed deployment of that integrated version from December
2001 until December 2002 in order to conduct a study of the downstream
operational costs of the integration (Metric Study). Our current review found
that JMD missed the December 2002 deployment date, and now plans to
deploy the initial integrated version in December 2003 – two years later than
originally planned.

      According to JMD officials, the reason for the latest year-long delay was
that the contractors and INS staff dedicated to the integration project were
redirected in June 2002 to implement the National Security Entry-Exit
Registration System (NSEERS).3 Thus, design and development of the first
integrated version of IDENT/IAFIS were put on hold until NSEERS became
operational. JMD expected that to occur by September 11, 2002, after which
resources would revert to the IDENT/IAFIS integration project. However, the
Department continued to identify additional NSEERS requirements, which kept
the IDENT/IAFIS contractors working on NSEERS into March 2003. We found
that despite the mounting delays, JMD neither prepared a revised schedule for
completing the integration of IDENT and IAFIS nor informed the Deputy
Attorney General or his immediate staff that the integration project was falling
behind schedule.

      We could not determine the impact of the latest delays on the final
project completion date because the IDENT/IAFIS project schedule has not
been updated. However, we found that the final completion probably will be
delayed from the original Fiscal Year (FY) 2007 date because JMD’s FY 2004
budget plans indicate they intend to continue funding the project in FY 2008
and beyond.

       JMD did not develop a transition plan for continued management of
the project once the INS transferred to the DHS. The March 2003 transfer
of the INS from the Department to the DHS divides critical integration project
responsibilities between two departments. JMD, which coordinates the
integration project, and the FBI, which controls IAFIS, remain in the
Department, while the INS and IDENT move to the DHS. JMD faces a major
challenge because it must now manage the integration project between

        3On June 5, 2002, the Attorney General announced plans to strengthen the
congressionally mandated entry-exit system. NSEERS is the initial step of a comprehensive
entry-exit system and focuses on nonimmigrant aliens who pose potential national security
risks. NSEERS collects nonimmigrant information and fingerprints.

U.S. Department of Justice                                                                  iii
Office of the Inspector General
Evaluation and Inspections Division
agencies in different departments. Yet JMD did not develop a plan for the
continued development and deployment of the integrated system prior to the
INS transfer. Consequently, the integration project, already behind schedule,
is likely to experience further delays. In our discussions with the Department
and INS officials, we found no consensus regarding future management of the
integration project.

      Interim enhancements to IDENT have yielded significant results.
Although the integration project has been delayed, our review found that the
Department has made interim enhancements to IDENT by adding to it
fingerprint records from IAFIS. The INS and the FBI entered into IDENT
152,200 National Crime Information Center (NCIC) “wants and warrants”
fingerprint records on individuals who were likely to be aliens (e.g., previously
arrested by the INS).4 As a result of entering these records, since January
2002 the INS matched approximately 4,820 fingerprints of apprehended
individual aliens with the fingerprint records of suspects wanted for a variety of
serious criminal offenses, including at least 50 aliens wanted in connection
with murder. The INS also added to IDENT 179,500 fingerprint records of
people from countries subject to NSEERS registration. From September 2002
to mid-April 2003, this effort resulted in an additional 3,440 individual
matches.

        The addition of approximately 331,700 fingerprint records to IDENT is
still well short of completely integrating 40 million FBI fingerprint records with
over 4 million INS alien fingerprint records. As of April 2003 the Department
still lacked the ability to fully exchange fingerprint records between the INS and
other federal, state, and local law enforcement agencies. A fully integrated
fingerprint system will improve the identification of aliens who are criminals or
terrorists by ensuring that apprehended aliens are automatically checked
against all automated IDENT and IAFIS fingerprint records and enabling other
federal, state, and local law enforcement agencies to access INS data through
IAFIS.

Conclusion

      The integration of the IDENT and IAFIS automated fingerprint systems
continues to proceed slowly. Since our last report in December 2001, the
integration project has fallen another year behind schedule and is at risk of
further delay because JMD has not planned for continued management of the
project after the INS’s transfer to the DHS. Although each of the delays

        Wants and warrants refer to the Wanted Persons file of the NCIC. The Wanted
        4

Persons file contains records on individuals with (1) outstanding warrants for serious
misdemeanors or felonies, and (2) temporary felony wants. A temporary felony want is issued
when a law enforcement agency must take prompt action to apprehend a person who has
committed or is believed to have committed a felony.

U.S. Department of Justice                                                                iv
Office of the Inspector General
Evaluation and Inspections Division
incurred since JMD assumed responsibility for the integration effort in 1999
has been attributable to reasonable causes – the latest being development of
NSEERS – at the current rate of progress integration of the two fingerprint
systems is still years away.

      The delays are all the more regrettable because the interim
enhancements to IDENT demonstrated the value of an integrated fingerprint
system for law enforcement officers and their efforts to protect the United
States against criminal aliens and terrorists. Until the integration is complete,
the INS, the FBI, and other law enforcement agencies remain unable to
simultaneously query INS and FBI fingerprint records. Therefore, some aliens
who should be detained will not be.

       Given the proven benefits afforded by an integrated fingerprint system,
the slow progress of the integration project represents an unacceptable risk to
public safety and national security. Rather than extending the project, JMD
instead should be seeking to expedite the project and complete the integration
even before FY 2007. Immediate management attention to this critical project
is essential to avoid additional delays, which will reduce the vulnerability of the
United States to entry by criminal aliens and terrorists.

Recommendations

      We made four recommendations to JMD to better manage the
IDENT/IAFIS project and prevent further delays. We recommended that the
Assistant Attorney General for Administration:

        1. Coordinate with the DHS to identify the management, deployment,
           and operational issues raised by the INS transfer to the DHS;

        2. Prepare a revised deployment plan with short- and long-range
           milestones to guide the integration project to the soonest possible
           completion;

        3. Brief the Deputy Attorney General’s office often on the revised
           deployment plan, and identify management controls and resources for
           the integration project; and

        4. Produce quarterly reports on the progress and interim results of the
           Metric Study.




U.S. Department of Justice                                                        v
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS


BACKGROUND ............................................................................................. 1

        I.   A Brief History of IDENT and IAFIS ................................................ 2

             The INS’s IDENT............................................................................ 2
             The FBI’s IAFIS.............................................................................. 4

        II. A Brief History of the Integration Project ........................................ 4

             JMD Assigned to Review IDENT and IAFIS..................................... 4
             The Rafael Resendez-Ramirez Case ................................................ 5
             Fingerprint Summit and Integration Project Studies ...................... 6
             Previous Deployment Plans............................................................ 8
             The USA PATRIOT Act ................................................................... 9
             OIG December 2001 Report on the Integration Project ................... 9

        III. Scope and Methodology ............................................................... 10

RESULTS OF THE REVIEW ...................................................................... 11

      The Integration Project Has Been Delayed Another Year ...................... 11

             Deployment Delays Impacted Studies and Reporting.................... 13
             NSEERS Delayed Deployment of Version 1.1+.............................. 14

      JMD Has No Transition Plan ............................................................... 15

             Lack of Consensus ...................................................................... 16
             Loss of Expertise ......................................................................... 17

      Interim Enhancements Yielded Significant Results .............................. 17

CONCLUSION AND RECOMMENDATIONS................................................. 19


APPENDIX I – JMD MANAGEMENT’S RESPONSE ..................................... 21


APPENDIX II - OIG ANALYSIS OF MANAGEMENT’S RESPONSE ............. 26
                                      BACKGROUND


       The Office of the Inspector General (OIG) conducted this review to
examine the Department of Justice’s (Department) progress at integrating the
Immigration and Naturalization Service’s (INS) Automated Biometric
Identification System (IDENT) and the Federal Bureau of Investigation’s (FBI)
Integrated Automated Fingerprint Identification System (IAFIS).5

       Since 1998, the OIG has conducted four reviews (including the current
review) and testified three times before Congress regarding IDENT and the
efforts to integrate IDENT and IAFIS. Our first report, Review of the [INS’s]
Automated Biometric Identification System (IDENT) (March 1998), examined the
status of the INS’s implementation of IDENT. Subsequent OIG reviews and
testimonies, which reported on the status of efforts to integrate IDENT and
IAFIS, include The Rafael Resendez-Ramirez Case: A Review of the INS’s
Actions and the Operation of Its IDENT Automated Fingerprint Identification
System (March 20, 2000); Status of IDENT/IAFIS Integration (December 7,
2001); Statement of Glenn A. Fine, Inspector General, before the House Judiciary
Committee, Subcommittee on Immigration and Claims (October 11, 2001);
Statement of Glenn A. Fine, Inspector General, before the Senate Judiciary
Committee, Subcommittee on Technology, Terrorism, and Government
Information (October 12, 2001); and Statement of Glenn A. Fine, Inspector
General, before the National Commission on Terrorist Attacks Upon the United
States (April 1, 2003).

      This Background Section describes the development of the IDENT and
the IAFIS automated fingerprint identification systems, and provides a brief
history of the efforts by the INS and the FBI to integrate the systems. The next
section, Results of the Review, describes our findings regarding the progress
since December 7, 2001, by the Justice Management Division (JMD), the INS,
and the FBI to integrate IDENT and IAFIS. In the final section, we provide four
recommendations for improving the management of the IDENT/IAFIS project.




        5 Biometrics are biological measurements unique to each person, such as fingerprints,
hand geometry, facial patterns, retinal patterns, or other characteristics that are used to
identify individuals. Fingerprints are the most common biometric used by law enforcement
agencies. IDENT was developed as a biometric component of the INS’s Enforcement Case
Tracking System (ENFORCE), a case management system that documents and tracks the
investigation, identification, apprehension, detention, and removal of immigration law violators.

U.S. Department of Justice                                                                     1
Office of the Inspector General
Evaluation and Inspections Division
I.      A Brief History of IDENT and IAFIS

       The INS’s IDENT. In 1989, Congress provided the initial funding for the
INS to develop an automated fingerprint identification system. The purpose of
the system was to identify and track aliens who were apprehended repeatedly
trying to enter the United States illegally.6 The system also was intended to
identify apprehended aliens suspected of criminal activity such as alien
smuggling, aliens subject to removal for conviction of aggravated felonies, and
aliens who had been previously deported.

       The INS and the FBI discussed developing a joint fingerprint system as
early as 1990. However, the concept of integration did not progress beyond the
discussion stage because the INS and the FBI had significantly different
operational requirements for their fingerprint systems. The primary difference
was the issue of using two fingerprints versus ten fingerprints. Because the
Border Patrol frequently apprehended large groups of illegal aliens, the INS
required that an automated fingerprint system provide a response within two
minutes. To meet that requirement, the INS decided that it would implement
an automated fingerprint system using two fingerprints and a photograph. In
contrast, the FBI, following standard law enforcement protocols, planned on a
system using ten fingerprints and requiring an optimum response time of two
hours. Consequently, in the 1990s, the two agencies developed independent
and incompatible systems, IDENT and IAFIS, to meet their own fingerprint
needs.

       Between 1991 and 1994, the INS conducted several studies of automated
fingerprint systems, primarily in the San Diego, California, Border Patrol
Sector. These studies demonstrated to the INS the feasibility of using an
automated fingerprint system to identify a large number of apprehended aliens
at a time. In September 1994, Congress provided $27 million for the INS to
deploy IDENT. In October 1994, the INS began using the system, first in the
San Diego Border Patrol Sector and then in other Border Patrol sectors along
the southwest border.

      In the 1996 Illegal Immigration Reform and Immigrant Responsibility
Act, Section 326, Criminal Alien Identification System, Congress specifically


        6The INS developed IDENT to provide a more reliable method for identifying aliens who
made multiple attempts to enter illegally (recidivists) or who had committed criminal offenses.
The INS needed to track how many times aliens were apprehended because, due to the high
number of aliens illegally crossing the southwest border, United States Attorney’s Offices
(USAO) generally declined to prosecute aliens unless they were recidivists or suspected of other
criminal activity. Thresholds vary among the USAOs, but generally an alien must be
apprehended multiple times on the southwest border before the USAO will accept the case from
the Border Patrol. Without a biometric system, the INS had to rely on checking the names
provided by the apprehended aliens against INS databases or other records.

U.S. Department of Justice                                                                    2
Office of the Inspector General
Evaluation and Inspections Division
directed the INS to expand the use of IDENT “to apply to illegal or criminal
aliens apprehended Nationwide.” This Act also directed the INS to:

        operate a criminal alien identification system . . . to assist
        Federal, State, and local law enforcement agencies in identifying
        and locating aliens who may be subject to removal by reason of
        their conviction of aggravated felonies, subject to prosecution . . .
        [because they were] not lawfully present in the United States, or
        otherwise removable. Such [a] system shall include providing for
        recording of fingerprint records of aliens who have been
        previously arrested and removed into appropriate automated
        fingerprint identification systems.

The INS identified IDENT as the system that it would use to meet this
congressional directive.

       To enroll an alien in IDENT, an INS officer scans the alien’s index fingers
with the IDENT fingerprint scanner, takes the alien’s photograph with the
IDENT camera, and enters certain biographical information into the system.
The aliens who are fingerprinted and enrolled into IDENT include aliens
arrested by the Border Patrol attempting illegal entry into the United States,
certain aliens inspected at ports of entry, and aliens encountered in the course
of law enforcement actions. Within minutes, IDENT electronically compares
the alien’s two fingerprints to:

        •    A lookout database in IDENT that contains the fingerprints and
             photographs of aliens who have been (a) removed previously, (b)
             convicted of aggravated felonies, multiple crimes, or crimes of moral
             turpitude, and (c) determined inadmissible due to national security
             concerns; and

        •    An apprehension (recidivist) database in IDENT that contains
             fingerprints and photographs of over four million illegal aliens who
             have been apprehended by the INS, enrolled in IDENT, and then
             permitted to voluntarily depart the United States or withdraw their
             applications for admission at ports of entry. This database contains
             alerts on aliens who have an administrative final order of removal or
             do not meet the criteria for a lookout record but for whom there is an
             officer safety concern.

       In the OIG’s March 1998 report, we evaluated the INS’s use of IDENT and
found that the INS enrolled into IDENT less than two-thirds of the aliens
apprehended along the southwest border. In addition, the INS enrolled only
41 percent of the aliens removed or excluded in FY 1996, and only 24 percent
of the IDENT fingerprint records had accompanying photographs, even though

U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation and Inspections Division
the INS relied on photographs to confirm identification. We found virtually no
controls in place that ensured the quality of data entered into IDENT. As a
result, we found duplicate records and invalid data. We also stated our
concern that the INS had not provided sufficient training to field staff on the
use of IDENT. We concluded that these failures hampered the INS’s ability to
make consistent and effective use of IDENT.

       The FBI’s IAFIS. Since the 1920s, the FBI’s Identification Division has
maintained a central repository of ten-print fingerprint cards of criminal
offenders. In 1989, the FBI Director asked the Advisory Policy Board (APB),
composed of approximately 30 representatives from the federal, state, and local
criminal justice community, to provide advice and guidance on fingerprint
identification issues. In February 1990, the APB recommended that the FBI
overhaul its paper-based identification system and create a new system, IAFIS,
that would allow electronic searches for fingerprint matches.

       In contrast to the INS, the FBI uses its fingerprint system not only to
positively identify an individual in custody, but also to meet other standard law
enforcement needs, such as identifying fingerprints found at crime scenes.
Because fingerprints at crime scenes may be from any finger, the long-
established law enforcement standard requires that officers take prints from all
ten fingers. Further, unlike the Border Patrol, the FBI and other law
enforcement agencies do not routinely apprehend large groups of suspects,
and, accordingly, do not face the processing time constraints that the INS
faced.

      To meet its needs, the FBI decided that its fingerprint system, IAFIS,
would contain all ten fingerprints and provide a response in as little as two
hours for high priority electronic requests (for lower priority and non-electronic
requests, a longer response time would be allowed). A fingerprint examiner
also analyzes and confirms the match made by IAFIS. IAFIS became
operational in July 1999. It contains more than 40 million 10-print fingerprint
records in its Criminal Master File and is connected electronically with all 50
states and some federal agencies.7

II.     A Brief History of the Integration Project

       JMD Assigned to Review IDENT and IAFIS. In 1998, in response to
congressional questions about duplication between the INS and FBI systems,
the Department assigned JMD to report on the feasibility of converting IDENT
to a ten-fingerprint system. On May 28, 1998, JMD proposed that the long-
term goal of the Department should be to adopt ten-fingerprint enrollment as


        7   The IAFIS Criminal Master File is the file that contains the ten-fingerprint records.

U.S. Department of Justice                                                                          4
Office of the Inspector General
Evaluation and Inspections Division
the standard while retaining IDENT to meet the INS’s specific requirements.
JMD concluded that this concept was:

        the unanimous choice of those who have been involved in the
        IDENT-IAFIS fingerprint issue, i.e., JMD, the FBI, the Border
        Patrol, and the INS. Properly funded, the option will permit the
        Border Patrol to maintain its current processing times while
        providing other law enforcement agencies with a voluminous
        fingerprint database that can be searched to solve crimes
        committed in the communities. At the same time, by retaining
        IDENT, the Border Patrol is able to capitalize on the benefits that
        system has to provide as an intelligence-gathering and
        investigative tool. Moreover, the rest of the INS will be able to
        continue its plans to integrate IDENT with other internal functions
        unique to the Service.

      The Rafael Resendez-Ramirez Case. In 1999, the shortcomings in the
Department’s ability to identify apprehended aliens were vividly and tragically
brought to public attention in the case of Rafael Resendez-Ramirez (Resendez),
known as the “railway killer.” Resendez, a Mexican citizen with an extensive
criminal record, was sought in 1999 for several brutal murders in the United
States. Although the INS was notified that other law enforcement agencies had
issued warrants for Resendez, the INS agents who received the notification of
the outstanding warrants did not enter his fingerprint records into the IDENT
lookout database because they were unfamiliar with IDENT or thought it was
the job of others to enter the information.

        On June 1, 1999, Border Patrol agents detained Resendez after he
illegally crossed the southwest border into the United States. The IDENT
system identified him as a recidivist; but, because he was not included in the
lookout database, nothing in IDENT alerted the Border Patrol that Resendez
was wanted by the FBI and local law enforcement authorities for murder.
Therefore, the Border Patrol did not detain Resendez, but followed its standard
policy and voluntarily returned him to Mexico. Within days, Resendez illegally
returned to the United States and committed four more murders before
surrendering to law enforcement authorities on July 13, 1999.

      In July 1999, a House Committee on Appropriations’ report, with the
Resendez incident clearly in mind, stated, “ . . . [T]he Committee repeatedly
raised concerns that IDENT was not integrated with FBI’s IAFIS database.”
The House report also demanded that federal, state, and local law enforcement
agencies should have access to INS fingerprint information, and that the INS
needed full access to the FBI criminal history records.

     On March 20, 2000, the OIG issued its report, The Rafael Resendez-
Ramirez Case: A Review of the INS’s Actions and the Operation of Its IDENT
U.S. Department of Justice                                                    5
Office of the Inspector General
Evaluation and Inspections Division
Automated Fingerprint Identification System. We found that the INS was unable
to identify whether apprehended aliens were wanted felons because IDENT
could not access the FBI’s newly automated criminal fingerprint database
(IAFIS) to check for outstanding warrants on the aliens. The OIG
recommended that technology be used to effectively provide what the IDENT
lookout database did not – a check of all apprehended aliens to determine if
they have serious criminal records, prior orders of deportation, or any
outstanding arrest warrants. The report concluded that the Department and
its components should aggressively and expeditiously link the FBI and INS
automated fingerprint systems.

      Fingerprint Summit and Integration Project Studies. In the
Department’s FY 2000 appropriation, Congress directed that the Department
conduct three studies to examine the feasibility of IDENT/IAFIS integration. In
response to the congressional directive, the Department assigned JMD to
coordinate its efforts to develop an integration plan. JMD convened a
“Fingerprint Summit” meeting on August 12, 1999, attended by representatives
from the FBI and the INS to discuss a plan for integrating IDENT and IAFIS. At
the meeting, the participants created a conceptual model for integrating IDENT
and IAFIS. Key elements of the model required that federal, state, and local
law enforcement agencies be able to access the INS’s fingerprint records
through IAFIS, and that the INS be able to check fingerprints of apprehended
aliens against all fingerprint records in IAFIS.

     To support the integration project, in FY 2000 and FY 2001, the
Department conducted the studies:

        •    The Operational Impact Study. This one-week study was conducted
             in the summer of 2000 at two INS locations. It assessed the impact
             on INS’s law enforcement operations at the border if enforcement
             personnel were required to take ten fingerprints and check them
             against the FBI’s IAFIS files. The study concluded that taking ten
             fingerprints was feasible if the INS could receive a response from the
             FBI within ten minutes.

        •    The Engineering/System Development Study. This study defined the
             engineering requirements and costs for integrating IDENT and IAFIS.
             The contractor conducted an image quality study to see how the
             existing ten-fingerprint IAFIS would perform when searched using
             two-fingerprint IDENT data. In December 2000, the study concluded
             that IAFIS could not be searched using the IDENT two fingerprints in
             the volume and within the response time that the INS required. The
             study proposed an alternative approach requiring the INS to collect
             ten fingerprints (in addition to continuing to separately take two
             fingerprints for IDENT). JMD would closely monitor research in

U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
             biometrics technology that could allow INS to take less than ten
             fingerprints to compare against IAFIS and obtain reliable results. The
             study estimated that the cost to develop, deploy, and maintain a
             system to support taking ten fingerprints at all INS locations would be
             approximately $450 million to $570 million between FY 2002 and
             FY 2007.

        •    The Criminality Study. This study estimated the number of criminal
             aliens that the INS would identify if all apprehended aliens’
             fingerprints were checked against IAFIS fingerprint records. The
             study, conducted in the summer of 2001, involved matching a sample
             of 15,000 alien records entered into the IDENT recidivist database
             between 1998 and mid-2000 against IAFIS fingerprint records. The
             study found that approximately 3.1 percent of the sampled aliens
             either had known criminal histories or active wants and warrants, 3.4
             percent had criminal charges without dispositions (possible
             acquittals, convictions, charges dropped or pending adjudication), and
             an additional 2 percent had administrative removals from the United
             States. The study projected that a total of 136,000 (8.5 percent) of the
             approximately 1.6 million aliens apprehended each year by the Border
             Patrol and currently allowed to voluntarily depart would instead be
             further detained and some form of additional law enforcement action
             would be required. Based on the sample, a resource analysis
             estimated that the costs to achieve the integrated database ranged
             from $1.2 billion to $1.9 billion (including systems and operational
             costs) from FY 2002 to FY 2007.8

      JMD questioned the conclusions of the Criminality Study because its
scope was limited, and decided not to use the results for future development
and deployment decisions. In particular, JMD was concerned that the
resource cost estimates only measured Border Patrol activity along the
southwest border, that much of the data was up to three years old, and that
the cost projections did not account for USAO prosecution criteria, which
varied across the country.

      In August 2001, JMD planned a Metric Study that would evaluate
seasonal immigration fluctuations and more accurately project the potential
operational impact and downstream operational costs of implementing an


        8 The operational costs refer to the additional resource requirements for the Border
Patrol that may result due to the identification of criminal aliens, combined with the cost of the
integration project from FY 2002 through FY 2007. The study did not include all downstream
operational costs to other Department components that would be affected by the increased
workload, such as the United States Marshals Service, Federal Bureau of Prisons, Executive
Office for Immigration Review, and USAOs.

U.S. Department of Justice                                                                      7
Office of the Inspector General
Evaluation and Inspections Division
integrated fingerprint system.9 In February 2003, Congress directed the
Department to submit a Cost and Operational Effectiveness Assessment on the
estimated operational costs of the integration project by June 2003.10 JMD
intended to use the Metric Study for this purpose.

      Previous Deployment Plans. According to the January 12, 2001, JMD
FY 2002 budget request, IDENT/IAFIS would be developed and deployed in
four major versions, culminating in the full integration of IDENT and IAFIS in
FY 2007 (see Table 1). Each major version can have incremental versions.
According to the initial implementation plan, the FBI would maintain the
integrated system. The entire project was budgeted at $571 million, which
included $125 million for maintenance of IDENT, but included nothing for the
downstream operational costs to the INS or other components. The initial
stage of IDENT/IAFIS, Version 1, would be deployed in FY 2001.




                                                   Table 1
                                        IDENT/IAFIS Versions
                                                 January 2001
 Version      Development             Deployment                        Capabilities
                 Date                    Date
     1          FY 2001                 FY 2001     Ten-fingerprint workstation capable of querying
                                                    IDENT using index fingers and IAFIS using ten
                                                    fingers. Displays IDENT and IAFIS responses.
                                                    Archives the ten-fingerprints for use by future
                                                    versions. IAFIS electronically transmits criminal
                                                    history records for matches. (Version 1 has several
                                                    increments referred to as Version 1.1, Version 1.1.1,
                                                    Version 1.1+, and Version 1.2.)
     2            FY 2002              FY 2003      Transfers archived ten-fingerprints into searchable
                                                    files (Apprehension File).
     3       FY 2003 to       FY 2004               Federal, state, and local law enforcement agencies
              FY 2004                               able to search the Apprehension File through IAFIS.
   4         FY 2004 to     FY 2006 to              Full search capabilities of the Apprehension File
              FY 2007         FY 2007               that have yet to be determined.
Source: INS Project Documents




       9 JMD planned to collect the following data for its Metric Study: IAFIS response times,

IAFIS hit rate, criminal history review, IDENT hit rate, image capture and quality, image
printing, IDENT/IAFIS mismatches, and search accuracy of rolled versus flat fingerprint
comparisons.
        10 Although this requirement was included in the Senate Conference Report

accompanying the Department’s FY 2003 Appropriations Bill, JMD knew as early as July 2002
that it would be required to submit the report.

U.S. Department of Justice                                                                           8
Office of the Inspector General
Evaluation and Inspections Division
      In August 2001, however, JMD revised its integration plan and slowed
down the project. Based on the mandated studies, JMD concluded that the
greatest obstacles facing the integration project were not system development
or technical issues, but operational issues related to the Department’s ability to
handle the additional workload and costs projected by the Criminality Study.
Because it questioned the accuracy of those projections, JMD decided to slow
the pace of the project to study the additional workload and costs. JMD also
wanted to monitor developing biometric technologies to ensure that the
Department did not commit large sums of money to an integration plan that
would not take advantage of technological advances.

       As a result of this decision to slow the project’s pace, JMD also reduced
its original FY 2002 budget request for the project from $38 million to $9
million. The $9 million would fund, among other things, studies of data
collected by deploying Version 1.1 to eight sites by February 2002 and an
additional ten field sites by July 2002. JMD projected that Version 1.2 would
be deployed by the end of December 2002.

       Taken together, those decisions meant that the time frame for completing
the first integrated version of IDENT and IAFIS would be set back one year.
Budgeting for completion of the full integration plan was still projected to be
FY 2007, but would be re-evaluated as the results of the pilot tests and field
site deployments were analyzed over the following two years.

       The USA PATRIOT Act. On October 26, 2001, in the wake of the
September 11 terrorist attacks on the United States, the President signed the
USA PATRIOT Act of 2001, Public Law 107-56 (Patriot Act). The Patriot Act
directs the expedited implementation of an integrated entry and exit data
system, including the use of biometric technology, so that federal law
enforcement organizations can better identify and detain individuals who pose
a threat to national security. The Patriot Act requires that the FBI share
wanted persons information in IAFIS with the INS to determine whether an
applicant for admission at a port of entry has a criminal record, and that the
Attorney General report to Congress on enhancing IAFIS and other
identification systems to better identify aliens who may be wanted before their
entry or exit from the United States. Subsequent Departmental responses to
Congress regarding pertinent provisions of the Patriot Act indicated that an
integrated IDENT/IAFIS is an integral tool to identify terrorist or criminal aliens
attempting to enter the United States.

       OIG December 2001 Report on the Integration of IDENT and IAFIS.
In December 2001, we conducted a follow-up review to determine the status of
efforts to integrate IDENT and IAFIS. The primary finding of our follow-up
review, similar to the conclusions in our March 2000 report, was that the
Department had moved slowly toward integrating the two fingerprint systems.
We recommended that the Department continue expeditiously to seek linkage
U.S. Department of Justice                                                         9
Office of the Inspector General
Evaluation and Inspections Division
of the FBI and INS automated fingerprint systems, and continue to use IDENT
while the integration was proceeding. Based on a recommendation in the OIG
March 2000 Resendez report, we also supported the INS and FBI interim
measure of immediately adding IAFIS fingerprint records for aliens with
outstanding wants and warrants to the IDENT lookout database. We also
recommended in the December 2001 report that the fingerprint records of
known or suspected terrorists be added to the IDENT lookout database.

III.    Scope and Methodology

       During this review begun in November 2002, we interviewed 26
individuals, including officials from the Office of the Attorney General, JMD,
the INS, the FBI, and government contractors. In addition, we reviewed over
200 documents including deployment plans, risk analysis studies, status
reports, test and evaluation plans, progress assessments, meeting minutes,
and technical manuals. We also observed a demonstration of the IDENT/IAFIS
training module at INS headquarters. In addition, we visited the INS port of
entry at Dulles International Airport to observe IDENT/IAFIS operations and
interview INS staff.




U.S. Department of Justice                                                 10
Office of the Inspector General
Evaluation and Inspections Division
                                 RESULTS OF THE REVIEW

        The integration of the IDENT and IAFIS automated fingerprint
        systems continues to proceed slowly. Since our last report in
        December 2001, the integration project has fallen another
        year behind schedule. We also found that the project is at risk
        of further delay because JMD did not develop a plan for
        managing the project once the INS transferred to the DHS in
        March 2003. The slow progress is all the more troublesome
        because interim enhancements to IDENT, which resulted
        approximately 4,820 positive identifications of wanted aliens,
        demonstrated the enormous potential for an integrated
        fingerprint system to help protect the United States against
        criminal aliens and terrorists. Given the proven benefits
        afforded by an integrated fingerprint system, the slow progress
        of the integration project represents a risk to public safety and
        national security.

The Integration Project Has Been Delayed Another Year

       At the time of our December 2001 report, the major pending milestone
for the integration project was deployment of the initial integrated version of
the IDENT/IAFIS system (Version 1.2). Our December 2001 report found that
the deployment schedule for the initial integrated version had been delayed by
at least one year to December 2002. That delay occurred because JMD, after
questioning the results of the Criminality Study, slowed the project until it
could conduct an additional study of the downstream operational costs of the
integration. Our current review found that the integration project was
sidetracked again in June 2002 when IDENT/IAFIS resources were redirected
to another high priority project (NSEERS). As a result, the scheduled
deployment of Version 1.2 was further delayed until December 2003, two years
later than originally planned.

      We were unable to determine the extent to which the latest delay will
push back the final completion date of the integration project because the
overall project schedule has not been updated. However, we found indications
that the project will not meet the planned FY 2007 final completion date for the
integration. Specifically, JMD’s FY 2002 budget request identified the funding
requirement for the integration project as extending through FY 2007.
However, JMD’s FY 2003 budget request extended funding for the integration
project through FY 2012. That was modified in JMD’s FY 2004 budget plan,
which indicates that they intend to continue funding the project in FY 2008
and beyond. Although the FY 2004 JMD project schedule budget no longer
goes out to FY 2012, the latest delay, combined with the extended budget

U.S. Department of Justice                                                   11
Office of the Inspector General
Evaluation and Inspections Division
request, strongly indicates that the integration of IDENT and IAFIS will not be
completed by FY 2007. Table 2 summarizes the status of all IDENT/IAFIS
versions deployed or planned as of the date of this report.


                                               Table 2
                                      IDENT/IAFIS Versions
                                           as of April 2003
      Version              Deployment                          Capabilities
                               Date
         1.0              September 2000 Searches IAFIS and returns FBI number automatically,
                                         but not the Record of Arrests and Prosecutions (RAP)
                                         sheet, which provides the criminal history. Requires
                                         separate search of NCIC to obtain RAP sheet. Uses
                                         large stand-alone ten-fingerprint scanner.
        1.1            Summer 2002       Returns RAP sheet automatically. Requires dual
                                         processing of fingerprints and data entry to search
                                         IDENT and IAFIS. Collects operational information and
                                         improves computer security.
       1.1.1         Fall/Winter 2002 Collects some metric information. Replaces stand-alone
                                         ten-fingerprint scanners with tabletop scanners.
                                         Upgradeable to later versions. Includes the booking
                                         function.
        1.1+           Delayed until     Eliminates dual processing. Ten fingerprints are
                         July 2003       entered only once to enroll an alien and query both
                                         IDENT and IAFIS. Uses IDENT photograph. Collects
                                         better metric information in a real operational
                                         environment.
        1.2            Delayed until     Collects one to four FBI compliant mugshots.
                      December 2003      Automatically submits ten-fingerprint card to INS for
                                         aliens to be entered into lookout database. Meet
                                         upgraded performance specifications. Interface to
                                         enable IAFIS data to be recorded in ENFORCE/IDENT.
                                         IAFIS query responses integrated with IDENT responses
                                         per subject.
         2               FY 2003*        Transfers archived ten-fingerprints into searchable files
                                         (Apprehension File).
         3               FY 2004*        Enables federal, state, and local law enforcement to
                                         search the Apprehension File through IAFIS.
         4              FY 2006 to       Full integration. Full capabilities have yet to be
                         FY 2007*        determined.
* Original deployment schedule, not revised to reflect latest delays.
Source: INS Project Documents

      Although Version 1.2 was not deployed on time, JMD did make some
progress since our last report. In the fall of 2002, JMD deployed a
nonintegrated version of IDENT (designated Version 1.1.1) that included the
equipment and some of the software enhancements that would be necessary to
enable the first integrated version to be deployed once it is developed and

U.S. Department of Justice                                                                  12
Office of the Inspector General
Evaluation and Inspections Division
added the electronic booking functions.11 As of mid-March 2003, Version 1.1.1
has been deployed to 51 sites. The Metric Study design was also completed,
the metric sites selected, and a special metrics database created that will
automatically collect the required data.

      Deployment delays impacted the study of downstream operational
costs and reporting to Congress. As described earlier in the report, in August
2001 JMD questioned the conclusions of the Criminality Study regarding the
downstream operational costs of integration, and planned to conduct a
12-month Metric Study to develop more accurate estimates. For that purpose,
JMD needed to deploy a version that would require only one entry of
biographical information and one set of ten fingerprints to query both IDENT
and IAFIS. JMD originally planned on using Version 1.2 because, under the
original plans, it would be the first version to meet that requirement.12

       In May 2002, after deployment of Version 1.2 was delayed, JMD
developed an alternate plan for obtaining the data needed for the Metric Study.
JMD proposed to develop a version (designated Version 1.1+) that would be
scaled back in functionality from Version 1.2, but which would still meet its
data collection needs by requiring only one entry of biographical information
and one set of ten fingerprints to search both IDENT and IAFIS. JMD initially
planned to deploy Version 1.1+ by December 2002, but missed this milestone
due to the previously discussed redirection of resources to NSEERS. As of
April 2003, Version 1.1+ had not yet been deployed to its first testing location.
JMD told us it was planning to begin deploying Version 1.1+ in May 2003,
finish by August 2003, and collect Metric Study data over the following 12
months.

      The continuing delays in deploying an integrated version of IDENT/IAFIS
also will affect the ability of the Department to meet the congressional deadline
to report on the downstream operational costs of integration by June 2003.
Because the Metric Study will not start until after that deadline, as of April
2003 JMD was planning to use data collected from the nonintegrated
Version 1.1.1 sites, along with any data that might be available from early
deployment sites of Version 1.1+, to prepare the Department’s June 2003
report to Congress.

       11Booking is an administrative step taken after a person is arrested and involves
recording the suspect’s name, the criminal offense with which the suspect is being charged,
and other pertinent facts and taking the suspect’s fingerprints and photograph.

       12 The earlier versions still used a two-step data entry and fingerprinting process. In
those versions, INS offi
       We question JMD’s approach to meeting the congressional requirement
because, according to JMD’s own reasoning, the data it plans to use to prepare
the cost projections for Congress will be of limited value. First, most of the
data will be collected using the nonintegrated (two-step) fingerprinting process
of Version 1.1.1. JMD delayed conducting the Metric Study precisely because
it believes that data from a nonintegrated version cannot be used to accurately
project the operational impacts of an integrated (one-step) fingerprinting
process. Second, in Version 1.1.1, the separate results of the searches of
IDENT and IAFIS are not automatically matched with each other. That
matching is needed to determine which system provided the response that
resulted in an alien being detained and, from that data, to project how many
more aliens may be detained under an integrated IDENT/IAFIS than under
IDENT alone. Projecting the number of additional detentions is essential for
projecting downstream operational costs of the integrated system. Given the
apparent limitations on the data that JMD plans to use to prepare its June
2003 report to Congress, we are concerned that any cost projections based on
that data will not be reliable. In his May 22, 2003 response to our draft report,
the Assistant Attorney General for Administration told us that JMD will advise
Congress that the “data is not suitable for drawing national conclusions or
making projections.”

      NSEERS delayed deployment of Version 1.1+ but JMD did not
apprise senior Department officials of the delays. According to JMD and
INS officials, the deployment of Version 1.1+ and Version 1.2 was delayed
because of the requirement to develop and deploy NSEERS. After the Attorney
General announced the NSEERS project in June 2002, JMD recommended
that IDENT/IAFIS support NSEERS because JMD believed that it would benefit
the IDENT/IAFIS project.13 The INS therefore directed the contractors and staff
working on IDENT/IAFIS to instead work on the NSEERS project. On
August 12, 2002, the Attorney General directed that NSEERS be operational by
September 11, 2002. JMD expected that, after September, the INS contractor
would resume working on the IDENT/IAFIS integration. However, the
Department requested a series of modifications to NSEERS, and work on those
modifications continued into March 2003, preventing the INS contractor from
returning full-time to the integration project.

      In addition to resource issues, technical issues related to NSEERS also
caused delays in the IDENT/IAFIS integration project. The integration of
IDENT/IAFIS and the development of NSEERS both required modifications to
the INS’s ENFORCE and IDENT systems.14 INS project staff told us that they
       13 The implementation of NSEERS enhanced the IDENT/IAFIS effort in one way. To

support NSEERS, funding was provided for an additional 31 Version 1.1.1 IDENT/IAFIS sites,
which raised the number of sites that would receive Version 1.1.1 in FY 2002 from 18 to 49.
        14 ENFORCE is a case management system that documents and tracks the

investigation, identification, apprehension, detention, and removal of immigration law violators.

U.S. Department of Justice                                                                    14
Office of the Inspector General
Evaluation and Inspections Division
concluded that it was risky to modify ENFORCE for the two projects
simultaneously. Consequently, while ENFORCE was being modified for each of
the five NSEERS upgrades deployed between September 2002 and March 2003,
work to support the integration project periodically stopped, often for weeks at
a time.

       JMD project managers and their INS counterparts recognized
immediately that NSEERS would delay the integration project, and discussed
integration project delays at weekly JMD project meetings as early as July
2002. However, we found that JMD never brought these concerns to the
attention of the Attorney General, the Deputy Attorney General, or their staffs,
despite frequent opportunities to do so. The Counsel to the Attorney General
who directed the NSEERS project, attended frequent Departmental NSEERS
progress update meetings with JMD representatives. However, in January
2003 he told us that he was unaware that NSEERS continued to adversely
impact the integration project.15 The then-Acting Assistant Attorney General
for Administration led the IDENT/IAFIS integration project in his role as the
Director of the JMD Management and Planning Staff. He stated that until
January 2003 he believed that any delays would be minor and not of enough
significance to discuss them with the Deputy Attorney General. He stated that
he did not learn the full extent of the delays until January 9, 2003. However,
even then he did not bring the issue to the attention of the Deputy Attorney
General or his staff.

      The failure of JMD to inform senior officials of the delays, particularly
when the NSEERS modifications continued after September 2002, precluded
them from taking actions to mitigate the delays and keep the integration
project on schedule. These actions could have included providing additional
resources and coordinating the development of NSEERS upgrades with the
integration project so that both projects could proceed.

JMD Has No Transition Plan for Managing the Integration
Project

       JMD has failed to address the serious management challenges created by
the INS’s March 1, 2003, transfer to the DHS. We found that JMD has no
transition plan to resolve basic management questions regarding the future
development and deployment of the integrated system. In the absence of an
effective transition plan, responsibility for the project is unclear and further
delays are likely. During our interviews, we identified two important
consequences of JMD’s lack of transition planning.


        15The Counsel added that it was his opinion that had someone advised the Office of the
Attorney General that NSEERS development was delaying the IDENT/IAFIS integration project,
it would not have made a difference in the project resource assignments.
U.S. Department of Justice                                                                 15
Office of the Inspector General
Evaluation and Inspections Division
       Lack of Consensus. First, there is a lack of consensus among project
participants regarding who should manage the future development and
deployment of IDENT. The then-Acting Assistant Attorney General for
Administration told us that he was concerned that the transfer of the INS to
the DHS may jeopardize further integration of IDENT and IAFIS, as the two
agencies use the integration project to further their differing priorities. He
believed that JMD should continue as the project manager because:

        •    Even though the INS will be the largest single user, the FBI will
             continue to “own” the integrated system (IAFIS).

        •    The downstream effects of a fully integrated system will have a
             significant impact on Department components.

        •    As the DHS becomes operational, many projects and issues will vie for
             management support putting the integration project at risk of
             becoming a low management priority.16

      The Counsel to the Attorney General who directed NSEERS told us he
strongly supported keeping management responsibility for IDENT/IAFIS
integration project within the Department. He cited the obvious ties of IAFIS to
the FBI. The Assistant Director of the FBI’s Criminal Justice Information
Systems said that, to his knowledge, the FBI did not have a position on this
issue, but he believed that JMD would be the best manager because “it has
been a good broker between the competing interests in the past” and has
experience in managing the project. In addition, he believed that the DHS, as a
new department, will be inundated with management issues and may not focus
on the integration project.

       In contrast to statements by JMD officials, the Counsel to the Attorney
General, and FBI officials, the INS’s Deputy Assistant Commissioner for the
Office of Inspections took the opposite position regarding management of the
integration project. He believed that the integration project would be a
valuable asset for homeland security and as such integration project
management should move to the DHS. Further, because key contractors
working on the project are INS contractors, the technical expertise will move
with the INS to the DHS and the integration project management responsibility
also should be at the DHS.



        16However, the then-Acting Assistant Attorney General for Administration said that he
did not formally present his views to the Attorney General or the Deputy Attorney General, and
JMD did not develop a formal transition plan for the integration project because he assumed
that the Department would continue to manage the integration project after the INS moved to
the DHS.

U.S. Department of Justice                                                                 16
Office of the Inspector General
Evaluation and Inspections Division
       Loss of Expertise. The second consequence of the transfer of the INS to
the DHS is that the integration project expertise may be lost. As the DHS
establishes its new organizational structure and reassigns staff accordingly,
some of the individuals with the most expertise in the integration project are
being assigned to other duties. For example, we verified that the INS’s
Biometrics Program Manager for Field Operations and the INS’s Director of
Enforcement Systems for Information Resource Management have been
assigned to the DHS Bureau of Immigration and Customs Enforcement. Before
the INS transfer, they worked closely with INS Inspections, the Border Patrol,
the FBI, and JMD on the IDENT/IAFIS project. However, in their new
positions, they will no longer be involved with INS Inspections or the Border
Patrol. Therefore, their knowledge of the integration project may be lost.

       The transfer of the INS to the DHS presents a major challenge for JMD to
manage the integration project between the departments. Yet, JMD does not
have a comprehensive plan for the continued development and deployment of
the integrated system after the INS transfer. Because of the lack of consensus
among project participants, the potential loss of project expertise, and the
failure of JMD to initiate meaningful discussions with the DHS, we believe that
the integration project is likely to be further delayed.

Interim IDENT Enhancements Yielded Significant Results, but
Full Integration is Needed to Protect Public Safety and National
Security

       In our December 2001 report, we reported that the full integration of
IDENT and IAFIS would be significantly delayed. At that time, the INS was
planning interim enhancements to improve the utility of IDENT until a fully
integrated IDENT/IAFIS system was deployed. Those enhancements included
deploying additional IDENT workstations to other Border Patrol stations, ports
of entry, and district offices, and adding fingerprint records for alien wants and
warrants to IDENT.17 In our report, we supported the INS’s planned actions,
and further recommended that the INS add fingerprint records of known or
suspected terrorists into IDENT.

      In December 2001, the INS, in coordination with the FBI, identified and
loaded into IDENT approximately 80,000 wants and warrants fingerprint
records from IAFIS. They selected fingerprint records based on various criteria
such as a previous INS arrest. Since December 2001, the INS updates IDENT
with new IAFIS fingerprint records on a biweekly basis, usually adding about
1,000 new records each time. As of mid-April 2003, IDENT contained about
152,200 wants and warrants fingerprint records.

      17 Since December 2001, the INS deployed an additional 1,600 workstations. In

FY 2003, the INS plans to deploy an additional 300 to 400 IDENT workstations.

U.S. Department of Justice                                                            17
Office of the Inspector General
Evaluation and Inspections Division
       The uploading of the IAFIS records into IDENT produced significant
results. Since January 2002, the INS positively identified the fingerprint
matches of approximately 4,820 apprehended individual aliens with those of
suspects wanted for criminal offenses including property crimes, immigration-
related offenses, drug trafficking, violent crimes, and drug possession.
According to INS records, 50 of the positive identifications involved aliens
wanted in connection with murder. In addition to the 152,200 wants and
warrants fingerprint records, the INS worked with the FBI to add fingerprint
records (from IAFIS) that correspond to NCIC criminal history records for
persons whose countries of birth are included in the NSEERS requirement for
registration. During this process, the INS added a total of 179,500 criminal
history fingerprint records to IDENT. As of mid-April 2003, these additions
resulted in 3,440 individual matches. The INS also received about 4,500
fingerprint records of terrorists or suspected terrorists from the FBI, which it
entered into IDENT.18

      Although uploading more than 331,700 IAFIS fingerprint records into
IDENT demonstrated the potential value of a fully integrated system, it falls
well short of the capability offered by full integration of all 40 million IAFIS
fingerprint records. Without a fully integrated system, there is:

        •     No guarantee that all aliens encountered by the INS will be processed
              through IAFIS. While waiting for full integration, the INS and JMD
              agreed that the INS would take ten fingerprints of aliens and process
              them through IAFIS only as long as INS operations were not impeded
              and no safety concerns were created in INS field offices. If that
              situation occurred, the INS would temporarily cease processing the
              aliens in IAFIS.

        •     No capability for a direct automated query of IAFIS through IDENT.
              The files added to IDENT must be identified, processed, and uploaded
              into IDENT every two weeks. This interim process does not permit the
              query of all IAFIS records, only those uploaded into IDENT.

        •     Limited ability for federal, state, and local law enforcement agencies to
              access IDENT fingerprint records through IAFIS.




        18   For security reasons, the number of matches is not releasable.

U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

       The integration of the IDENT and IAFIS automated fingerprint systems
continues to proceed slowly. Since our last report, the integration project has
fallen another year behind schedule and will be delayed further because of
JMD’s lack of planning for the INS’s transfer to the DHS. The slow progress is
even more troublesome because the interim enhancements to IDENT resulted
in the positive identification of approximately 4,820 apprehended individual
aliens with those of suspects wanted for criminal offenses. Until JMD and
participating agencies ensure that all available IDENT and IAFIS fingerprint
records can be searched, criminal aliens and potential terrorists who should be
identified and detained may be missed. This is a significant risk to public
safety and national security.

       Although each of the delays incurred since JMD assumed responsibility
for the integration effort in 1999 has been attributable to reasonable causes –
the latest being development of NSEERS – full integration of the systems
remains years away. In the past, JMD argued against proceeding with the
integration without the necessary data to accurately project downstream
operational costs because the costs may be significant and deserved further
study. However, it has been 20 months since JMD slowed the integration
project to do its Metric Study, but it has yet to field the integrated version
needed to support the Study. Furthermore, JMD has not made the necessary
transition plans to prevent further delays and lead the integration project to
completion now that the INS is part of the DHS. As a result, there are
divergent viewpoints among key officials regarding the future of the integration
project.

       Because of the enormous value of an integrated fingerprint system for
identifying criminal aliens and terrorists attempting to enter the country, and
the Department’s focus to prevent terrorism, we believe JMD must act
aggressively to prevent further delays. We again conclude that the Department
should aggressively and expeditiously pursue the integration of the FBI and
INS automated fingerprint systems.

Recommendations

      We make four recommendations to JMD to better manage the
IDENT/IAFIS project and prevent further delays. We recommend that the
Assistant Attorney General for Administration:

        1. Coordinate with the DHS to identify the management, deployment,
           and operational issues raised by the INS transfer to the DHS;



U.S. Department of Justice                                                    19
Office of the Inspector General
Evaluation and Inspections Division
2. Prepare a revised deployment plan with short- and long-range
   milestones to guide the integration project to the soonest possible
   completion;

3. Brief the Deputy Attorney General’s office on the revised deployment
   plan, and identify management controls and resources for the
   integration project; and

44.1798 Tm(integration o2 Tw 12 0 du2s quarterlyolspwits office ratgls contro98 Tiveo
              APPENDIX I – JMD MANAGEMENT’S RESPONSE




U.S. Department of Justice                             21
Office of the Inspector General
Evaluation and Inspections Division
Glenn A. Fine                                                                             2

Version 1.1 was a stand-alone workstation with no capacity for future upgrades as an integrated
IDENT/IAFIS client. Version 1.1.1 allowed further site deployments with workstation hardware
components that could later be updated with a software upgrade. In fact, all pre-existing version
1.1 workstations have now been replaced by version 1.1.1 workstations, and the old hardware is
being re-deployed to Detention and Removal operational locations where an integrated
workstation is not critical. If version 1.1.1 had not been developed and deployed in the past
year, only 10 sites would have access to lAPIS today in contrast to the more than 50 sites that
now have access. This five-fold increase in sites with access seems worthy of recognition as
significant progress toward the ultimate goal

Version 1.1+, currently in testing and scheduled for deployment this summer, for all intents and
purposes will give us much of what we need from version 1.2. Most importantly, it will be the
version that enables each apprehendee to be processed once, not twice (once in each system,
using separate workstations). The elimination of dual processing, and the ability to clearly
connect responses from both systems, will enable us to collect the data we need to measure the
effect on the Department of Homeland Security's (DHS) Border Patrol and Inspections
operations, accurately project other downstream impacts, and determine the most cost effective
way to integrate the two systems.

The primary benefit version 1.2 will offer over version 1.1 + is full Joint Automated Booking
System (JABS) functionality, specifically JABS-compliant mug shots. This capability, while
important in fully extending the JABS program into these DHS functional areas, is not critical to
the eventual integration of IDE NT and lAFIS. Furthermore, creating an environment to take
JABS-compliant mug shots will involve some significant degree of business process re-
engineering in the deployed sites, a time-consuming process that would slow down other tasks
more critical to the core project. While we admit that deployment of version 1.1 + has been
delayed approximately 6 months, it is scheduled to be deployed this summer and its delay is
largely attributable to the high priority given to the development and deployment of another
powerful tool in our war on terror, the National Security Entry Exit Registration System
(NSEERS).

NSEERS DELAYS

With respect to the NSEERS-related delays, your report indicates that the Immigration and
Naturalization Service (INS) and the Justice Management Division (JMD) recognized
immediately in July 2002 that NSEERS would cause delays, yet the Acting Assistant Attorney
General for Administration (AAG/ A) did not raise the issue with senior Departmental managers
despite frequent opportunities to do so. You report that NSEERS was scheduled to be deployed
in September 2002 but was still being worked on in March 2003. You also report that five
upgrades were made to NSEERS over this time period. This suggests that each delay to upgrade




U.S. Department of Justice                                                                     22
Office of the Inspector General
Evaluation and Inspections Division
Glenn A. Fine                                                                               3

NSEERS averaged 4-6 weeks. From the perspective of JMD, it was clear that NSEERS was a
high priority for the Attorney General. Given that, and the fact that the duration of the conflict
with NSEERS development was always less than 2 months at anyone time, it never seemed that
any prospective delays to IDENT/IAFIS would be significant. Looking backward, given the
eventual number of NSEERS upgrades, the cumulative delay was significant.

If we knew in July 2002 what we now know, alternative arrangements possibly could have been
made. However, since it appeared that each delay would be of short duration, adding more
resources to the project was not reasonable given the time it would take new staff and contract
programmers to get up to speed. Further, the suggestion that coordinating the development of
NSEERS upgrades with the integration project so that both projects could proceed is contrary to
basic principles of system development. Both projects involved changes to the same two
operational systems: IDENT and ENFORCE. To make simultaneous changes to the baselines of
these systems would have jeopardized both projects as well as the existing operational systems.

Finally, your report states "JMD recommended that IDENT/IAFIS support NSEERS because
JMD believed that it would benefit the IDENT/IAFIS project." The INS therefore directed the
contractors and staff working on IDENT/IAFIS to instead work on the NSEERS project"
(emphasis added). As indicated to your review team, INS worked on NSEERS at the direction of
senior Departmental management. The only NSEERS-related support for the IDENT/IAFIS
project was supplemental appropriation funding to deploy IDENT/IAFIS workstations to
additional ports of entry to provide further identification capabilities to back-up and benefit
NSEERS activities. Those added deployments did nothing to advance system integration efforts.

TRANSITION PLANNING

The report states that JMD has failed to address the serious management challenges created by
the INS transfer to DHS and identifies two important consequences of JMD's lack of transition
planning: lack of consensus among project participants regarding who should manage the future
development and deployment, and potential loss of expertise of INS staff working on the project.
With respect to the consensus issue, you report that JMD officials, the Counsel to the Attorney
General, and FBI officials believe that project management should remain in DOJ while one
INS/DHS official indicated that role should be transferred to DHS. It is not surprising that
another agency's official would prefer that control over a project affecting that agency's
information systems be located in his agency. I don't believe that position would change
regardless of the amount of transition planning that is done. Clearly, Congress originally gave
JMD the lead on this project and congressional staff have recently stated that they remain
pleased with that decision. The fact that FY 2004 funding for the project was placed in the
Department of Justice budget suggests that the Office of Management and Budget (OMB) and
the President are satisfied with the current arrangement.




U.S. Department of Justice                                                                      23
Office of the Inspector General
Evaluation and Inspections Division
Glenn A. Fine                                                                             4

With respect to the potential loss of expertise, we can report that planning, development and
deployment activities continue despite initial disruptions caused by the creation of DHS. We
continue to work with the same personnel we dealt with when INS still existed, and we continue
to make progress. As DHS personnel have settled in, we are making contacts with other officials
that should be involved in the project, briefing them on the history of the project, and engaging
them in planning its future directions.

JUNE 2003 REPORT TO CONGRESS

The draft report states, "We question JMD's approach to the congressional requirement because,
according to JMD's own reasoning, the data it plans to use to prepare the cost projections for
Congress will be of limited value." We informed the review team that the report to Congress will
not contain cost projections for the precise reasons stated in your report. We plan to report some
illustrative data gleaned from the initial deployment that underscore the need to continue this
project, but we will point out that this data is not suitable for drawing national conclusions or
making projections. As your report states, data suitable for those purposes will not become
available until the version 1.1 + workstation has been deployed. The report to Congress will
describe our plans for collecting such data and making those conclusions and projections in
future follow-up reports.

RESPONSES TO RECOMMENDATIONS

As previously mentioned, I concur with the recommendations contained in the report. They
propose a number of actions that are underway or planned and that would help ensure further
progress in integrating the two systems. Our response to each is noted below.

1.      Coordinate with the DHS to identify the management, deployment, and operational
        issues raised by the INS transfer to the DHS.

        As stated previously, much planning and deployment activity has continued despite the
        INS transfer to DHS. Management and operational issues arise on occasion are being
        dealt with as they emerge. JMD has begun to meet with DHS officials who were not
        previously with INS in order to engage them in these activities and to respond to the
        Congressional question as to whether other DHS law enforcement components should be
        involved in the integration project. We anticipate these efforts will be on-going for the
        foreseeable future.




U.S. Department of Justice                                                                     24
Office of the Inspector General
Evaluation and Inspections Division
Glenn A. Fine                                                                               5

2.      Prepare a revised deployment plan with short- and long-range milestones to guide
        the integration project to the soonest possible completion.

        Now that conflicts with NSEERS development have ended and version 1.1 + is nearing
        deployment, we can develop a revised plan addressing further deployment and
        development activities. That revised plan is being prepared along with the FY 2005
        budget submission and will be finalized after a Departmental review and budget decisions
        are made. This is anticipated by August 8, 2003. Of course, any subsequent revisions to
        the budget request by OMB could result in changes to that plan.

3.      Brief the Deputy Attorney General's Office often on the revised deployment plan,
        and identify management controls and resources for the integration project.

        We anticipate briefing the Deputy Attorney General and other senior Departmental
        managers as part of the FY 2005 budget process. At this time no date has been set, but it
        should occur this summer. Further briefings for those officials will be scheduled at their
        convenience.

4.      Produce quarterly reports on the progress and interim results of the Metric Study.

        Quarterly reports on the project's progress and interim results of the Metric Study will
        begin October 31, 2003 (30 days following the completion of the quarter ending on
        September 30), and will follow every 3 months thereafter.




U.S. Department of Justice                                                                         25
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX II: OIG ANALYSIS OF MANAGEMENT’S RESPONSE


       On May 1, 2003, the Office of Inspector General (OIG) provided a draft of
this report to the Assistant Attorney General for Administration for comment.
His response, dated May 22, 2003, is included in Appendix I. The response
concurred with our four recommendations and commented on four issues
identified in our report: the progress of the project, the role of the National
Security Entry-Exit Registration System (NSEERS) in causing project delays,
the planning for the transition of the Immigration and Naturalization Service
(INS) to the Department of Homeland Security (DHS), and the data that the
Justice Management Division (JMD) plans to use to prepare the June 2003
report to Congress. Our analysis of the comments on each of the four issues
and each of the four recommendations follows.

Project Progress

       With regard to our finding that the integration project was two years
behind schedule, the response stated that we “imply that the project has been
in limbo” and that little or nothing was accomplished since the OIG’s December
2001 report. Further, the response stated that our not mentioning in the
Executive Summary that JMD deployed two interim versions was “an omission
that leaves an inappropriate implication” that no progress has been made.

      The Assistant Attorney General also stated that we gave little mention to
the deployment of Version 1.1.1 to 50 sites, an increase beyond the originally
planned 10 sites. Finally, the response criticized our focus on the failed
deployment of the originally planned integrated Version 1.2, because it stated
that another planned interim version (Version 1.1+) would provide “much of
what we need” from Version 1.2.

       OIG Analysis: We do not agree that our report characterized the
IDENT/IAFIS integration project as being “in limbo” since December 2001.
Rather, we acknowledged the progress cited by the response. Specifically, we
described the expanded deployment of Version 1.1.1 to support the NSEERS
project on page 14 of the report. We also described the development of
Version 1.1+ on page 12, including explaining the functionality Version 1.1+
will provide and noting that it will enable JMD to proceed with the Metric
Study. Nonetheless, those interim versions do not equate to the integrated
version (Version 1.2) that JMD originally planned to deploy by December 2001.
(See Table 2, page 12 for a functional description of each version.) In
December 2001, we reported that the next major milestone for the project,
deployment of Version 1.2, had been delayed until December 2002. That
schedule was not met, and the deployment of Version 1.2 is now planned for
December 2003. Consequently, the primary finding in our report was that the

U.S. Department of Justice                                                    26
Office of the Inspector General
Evaluation and Inspections Division
integration project has continued to experience delays and has fallen further
behind schedule.

       Further, although the expanded deployment of Version 1.1.1 provided
additional equipment that will support later deployments of the integration
project, the response stated that deploying additional Version 1.1.1
workstations “did nothing to advance the system integration efforts.” Also, we
note that the deployment of Version 1.1+ continues to slip further behind
schedule. Originally scheduled for deployment in December 2002, JMD now
plans to deploy Version 1.1+ in August 2003, at least eight months later than
planned. Therefore, while we believe it is appropriate to recognize JMD’s
interim actions in the body of the report, we conclude that the Executive
Summary should address our finding that the integration project is now at
least two years behind schedule.

NSEERS Delays

      Regarding our finding that the reassignment of integration project
resources to the NSEERS project delayed the integration project, the response
stated that NSEERS was a high priority project for the Attorney General.
Further, the response stated that the interruption was actually a series of short
delays, none of which seemed significant taken individually. Therefore, JMD
could not foresee that these short delays would ultimately accumulate to
become the significant delay that has occurred. The response also stated that
because each delay was short, JMD did not believe that it was feasible to
assign additional resources to the project. The response also asserted that
technical difficulties would have prevented both projects from being developed
at the same time. Finally, the response conceded that, had JMD known from
the outset that the delays would become significant “alternative arrangements
possibly could have been made.”

      OIG Analysis: We acknowledged the importance of the NSEERS project
in the report. However, we continue to believe that JMD did not sufficiently
recognize and advise senior Department officials of the integration project
delays. That was especially true after the initial September 2002 NSEERS
completion date passed and more integration project delays were expected.
Because the cumulative effects of the integration project delays were not
recognized and reported, senior Department officials were precluded from
making “alternative arrangements.”

Transition Planning

       Regarding our finding that JMD did not plan for the transition of the INS
to the DHS, the response stated that our concerns regarding the lack of
consensus about which agency should continue to manage the integration and

U.S. Department of Justice                                                      27
Office of the Inspector General
Evaluation and Inspections Division
the loss of integration project expertise were unfounded. The response stated
that the lack of consensus was not surprising. Further, notwithstanding the
lack of consensus, JMD has assumed that, based on congressional feedback
and the inclusion of project funding in JMD’s budget, it will continue to
manage the integration project. The response further stated that there has
been no loss of project expertise; stated that JMD continues to interact with
the same individuals formerly from the INS who are now part of the DHS; and
described efforts by JMD to reach out to DHS officials to keep the integration
project moving forward.

      OIG Analysis: The response’s focus on the lack of consensus and the
potential loss of project expertise misses our point that, as the integration
project manager, JMD failed to exercise its responsibilities to plan and manage
the integration project during the transfer of the INS to the DHS. Further, we
are concerned that the response implied that transition planning was not
required. We strongly disagree. The integration of IDENT and IAFIS is a
complex project with significant national security implications. To allow the
project to move forward into the new multi-agency environment without
adequate planning and agreement about roles and responsibilities is risky. If
JMD believed that it had a mandate to continue to manage the integration
project, then it was incumbent on JMD to take full responsibility for leading
the planning and execution of the transition.

June 2003 Report to Congress

       Regarding our finding that the June 2003 report to Congress will not
contain the required data to project operational costs, the response stated that
JMD was fully aware of the limitations of the data it was collecting. The
Assistant Attorney General also stated that the report will contain “some
illustrative data gleaned from initial deployment” and that JMD will advise
Congress that the “data is not suitable for drawing national conclusions or
making projections.”

      OIG Analysis: In response to the statement that JMD will advise
Congress on the limitations of the data presented in the June 2003 report, we
added a sentence in the appropriate section of the final report acknowledging
that planned action.

Recommendation 1 – Resolved – Open.

       The response agreed with our recommendation to coordinate with DHS
officials concerning the integration project. The response stated that
“management and operational issues arise on occasion [and] are being dealt
with as they emerge.”


U.S. Department of Justice                                                    28
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: JMD’s meeting with DHS officials to manage the day-to-
day operations of the integration project is a positive step. However, JMD does
not describe how it plans to identify the management, deployment, and
operational issues associated with the integration, and does not discuss how it
plans to resolve the issues. Further, managing issues as they arise is an
example of the reactive approach that we criticize in our report and that we
believe has contributed to growing delays in the integration project. Effective
project management and planning depends on a rigorous examination of the
challenges that must be addressed to complete the project. As the integration
project lead, JMD should proactively identify the management, deployment,
and operational issues facing the integration project, including those that
result from the INS moving to the DHS. To close this recommendation, please
provide us with a copy of the transition issues and a plan to address them by
August 15, 2003.

Recommendation 2 – Resolved – Open.

      The response agreed with our recommendation to revise the integration
project development and deployment plan.

      OIG Analysis: Please provide us with a copy of the revised integration
project development and deployment plan by August 15, 2003.

Recommendation 3 – Resolved – Open.

      The response agreed with our recommendation that JMD brief the
Deputy Attorney General and other senior Department officials on the revised
development and deployment plan. The response stated that this briefing will
be part of the fiscal year 2005 budget process with further briefings to “be
scheduled at their convenience.”

       OIG Analysis: Briefing the Deputy Attorney General and other senior
Department officials as a part of the budget process is responsive to this
recommendation if the briefing clearly identifies how the issues associated with
the INS’s move to the DHS will be addressed and describes JMD’s plan to keep
the integration project on schedule. Please provide us with a copy of the
briefing materials by August 15, 2003.

Recommendation 4 – Resolved – Open.

      The response agreed with our recommendation to produce quarterly
reports on the progress of the integration project and interim results of the
Metric Study. The first report will be issued on October 31, 2003, with results
from the quarter ending September 30, 2003.

U.S. Department of Justice                                                     29
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: Please provide us with a copy of the first report provided
to the Deputy Attorney General and other senior Department officials by
October 31, 2003.




U.S. Department of Justice                                                    30
Office of the Inspector General
Evaluation and Inspections Division
